No. 19-265
IN THE

SUPREME COURT OF THE UNITED STATES

BRANDON KELLY,
SUPERINTENDENT, OREGON STATE PENITENTIARY,
Petitioner,
v.
LAYCELLE TORNEE WHITE,
Respondent,

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Respondent asks leave to file the attached brief in opposition to the petition for a
writ of certiorari without prepayment of costs and to proceed in forma pauperis.

Respondent has previously been granted leave to proceed in forma pauperis in the
proceedings below in the Oregon Supreme Court (S065223) and the Oregon Court of
Appeals (A154420). An affidavit is not attached because respondent was appointed
counsel in the court below in the current proceeding. A copy of the Oregon Court of
Appeals order appointing counsel to represent petition in the state post-conviction appeal
is appended.

Respectfully Submitted,

Jeffrey E. Ellis

621 SW Morrison Street, Suite 1025
Portland, OR 97205

Counsel of Record
IN THE COURT OF APPEALS OF THE STATE OF OREGON

LAYCELLE TORNEE WHITE,
Petitioner-Appellant,

Vv.

JEFF PREMO, Superintendent, Oregon State Penitentiary,
Defendant-Respondent.

Marion County Circuit Court
11024240

A154420
ORDER APPOINTING COUNSEL
Appellant has moved for appointment of counsel to represent for purposes of appeal.

The motion is granted. Ryan O'Connor, OSB #053353, is appointed to
represent appellant on appeal. The opening brief is due June 11, 2014.

[Com thuw— 4/23/2014

2:19:56 PM
RICK T. HASELTON
CHIEF JUDGE, COURT OF APPEAL!

 

 

 

 

c: Scott Howell
Anna Marie Joyce
Ryan T O'Connor

km

ORDER APPOINTING COUNSEL

REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,

Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1
